     '"
"
'"

~"
                          DEPARTMENT OF HEALTH & HUMA SERVICES                                                         Office of Inspector General
 ~o
  ~'"
     a-Jy..qf~d3.a                                                         JUN - 4 20                                  Washington, D.C. 20201
  ",~'~l-S"VIC'S'''''~




                         TO:                Kerry Weems
                                            Acting Administrator
                                            Centers for Medicare & Medicaid Services


                         FROM:              Daniel R. Levinson ~
                                                                          J1 . g¡l.~
                                            Inspector General


                         SUBJECT:           Memorandum Report: "Role of  Nursing Homes and
                                            Long Term Care Pharmacies in Assisting Dual-Eligible
                                            Residents With Selecting Par D Plans," OEI -02-06-00191


                         This memorandum report provides information about the role of nursing homes and
                         long term care pharmacies in assisting dual-eligible residents with selecting their
                         Part D plans. This information was gathered as part of another study, entitled
                         "Availability of Medicare Part D Drugs to Dual-Eligible Nursing Home Residents"
                         (OEI-02-06-00l90).

                         Nursing homes and long term care pharmacies reported providing different types of
                         assistance to dual-eligible residents who were selecting their Part D plans. The types of
                         assistance included: identifying multiple plans that met residents' needs, enrollng
                         residents in a single plan or recommending one plan to residents and providing general
                         information. Some nursing homes and long term care pharmacies provided no assistance,
                         at alL. It appears that some of these practices may not be in accordance with the Centers
                         for Medicare & Medicaid Services (CMS) guidance that does not allow nursing homes to
                         request, require, coach, or steer residents to select plans. We further note that the Federal
                         regulations that apply to hospital discharge planning may serve as a useful model for
                         Part D. For example, as part of    the discharge-planning process, hospitals must provide a
                         list of   home health agencies or skilled nursing facilities available to patients.

                         BACKGROUND
                         The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
                         established the Medicare Prescription Drug Program, known as Medicare Part D. i

                         i The Medicare Prescription Drug, Improvement, and Modernization Act of2003, P.L. No. 108-173,
                         Title (, § 101 et seq. (codified at 42 D.S.C. § 1395w-101 et seq. and 42 D.S.C. § 1396u-5).



                         GEl -02-06-00191
                         Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
                         Selecting Part D Plans
Page 2 – Kerry Weems


CMS contracts with private health insurance companies to provide the Medicare Part D
benefit. These private health insurance companies offer a variety of Part D plans.

Prior to Medicare Part D, Medicaid paid for most prescription drugs for dual-eligible
residents, who are eligible to receive both Medicare and Medicaid. Under
Part D, they now receive drug coverage through Medicare and must enroll in private
Part D prescription drug plans. On January 1, 2006, dual-eligible nursing home residents
were automatically enrolled in randomly assigned eligible Part D plans if they had not
already selected one.2 Unlike other Medicare beneficiaries, dual-eligible beneficiaries
may change their plans at any time.3

Pursuant to Federal law, all Medicare beneficiaries have the right to enroll in Part D
plans.4 Additionally, one of the Conditions of Participation in the Medicare and Medicaid
programs is that nursing homes must not deny beneficiaries the right to enroll in Part D
plans.5 However, a nursing home is allowed to select a Part D plan for a resident if it is
acting as the resident’s legal representative in accordance with State law.6

State surveyors can cite a nursing home with a deficiency if it fails to allow beneficiaries
the right to choose their Part D plans.7 In a memorandum to State Survey Agency
Directors, CMS provided additional guidance about this requirement:

         Under no circumstance should a nursing home require, request,
         coach, or steer any resident to select or change a plan for any reason.
         Furthermore, nursing homes should not knowingly and/or willingly
         allow the pharmacy serving the nursing home to require, request,
         coach, or steer a resident to select or change a plan [42 CFR
         §483.12(d)]. Nursing homes may, and are encouraged to, provide
         information and education to residents on all available Part D plans.8




2
  42 U.S.C. § 1395w-101(b)(1)(C); see also 42 CFR § 423.34. 

3
  42 CFR § 423.38(c)(4).

4
  42 U.S.C. § 1395w-101(b)(1)(B)(ii). 

5
  42 CFR § 483.12(d).

6
  42 CFR § 423.32(b)(i); see also “Medicare Program; Medicare Prescription Drug Benefit; Final Rule,” 

70 Fed. Reg. 4194, 4203–4204 (Jan. 28, 2005). 

7
  42 CFR § 483.12(d) (1) states that “The facility must--(i) Not require residents or potential residents to 

waive their rights to Medicare or Medicaid.” See also Centers for Medicare & Medicaid Services (CMS), 

Center for Medicaid and State Operations/Survey and Certification Group, “Nursing Homes and Medicare

Part D,” Ref: S&C-06-16 (May 11, 2006).

8
  CMS, Center for Medicaid and State Operations/Survey and Certification Group, “Nursing Homes and

Medicare Part D,” Ref: S&C-06-16 (May 11, 2006). 




OEI-02-06-00191
Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
Selecting Part D Plans
Page 3 – Kerry Weems


In addition, CMS marketing guidelines require Part D plans to ensure that providers and
subcontractors, including pharmacies and long term care facilities, comply with certain
requirements.9 Specifically, the guidelines encourage providers to assist beneficiaries in
objective assessments of their needs and plan options that may meet those needs.
However, the guidelines state that “Providers also cannot direct, urge or attempt to
persuade beneficiaries to enroll in a specific plan.”

METHODOLOGY

The information provided in this memorandum report is based on an analysis of
structured interviews with a random sample of nursing home administrators and directors
of operations for long term care pharmacies (referred to hereafter as pharmacy directors).
These respondents have firsthand knowledge of Part D requirements for dual-eligible
nursing home residents.

We selected a simple random sample of 150 nursing homes from CMS’s Online Survey
and Certification Reporting System. We excluded six of these nursing homes because
they informed us that they did not have any dual-eligible residents in 2006. Our sample
included the remaining 144 nursing homes. We asked each of these nursing homes to
identify all of the long term care pharmacies that provided Part D drugs to their residents.
They identified 139 long term care pharmacies. We excluded 55 of these 139 pharmacies
from our review because they were under investigation by the Office of Inspector
General.

We interviewed 128 administrators and 79 pharmacy directors between September 2006
and March 2007. We asked all administrators and pharmacy directors about their roles in
assisting dual-eligible residents with selecting their Part D plans. Estimates derived from
the administrators’ responses are projected to the population of administrators of nursing
homes with dual-eligible residents. However, estimates derived from pharmacy
directors’ responses are limited to the sample respondents because of the small usable
sample size. We also cannot make judgments as to whether the nursing homes’ activities
are allowable based on State law. As previously mentioned, a nursing home may select a
Part D plan for a resident if it is acting as the resident’s legal representative in accordance
with State law. The appendix provides the confidence intervals for selected estimates.

Our review was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency.


9
 CMS, “Medicare Marketing Guidelines for: Medicare Advantage Plans, Medicare Advantage
Prescription Drug Plans, Prescription Drug Plans, and 1876 Cost Plans,” August 2005, pp. 122–124.



OEI-02-06-00191
Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
Selecting Part D Plans
Page 4 – Kerry Weems


RESULTS

Many Nursing Homes and Long Term Care Pharmacies Identified Multiple Plans
for Dual-Eligible Residents
During our interviews, 38 percent of nursing home administrators reported that their
nursing homes or long term care pharmacies identified multiple plans that met the needs
of dual-eligible residents. (See Table 1 on page 5.) Administrators most commonly
noted that nursing home or long term care pharmacy staff entered the residents’
prescribed drugs into the Medicare Plan Finder,10 assessed the results, and provided a list
of several plans or the entire list of plans to residents. Another administrator explained
that he worked with the pharmacy to identify three or four plans that best fit each
resident’s needs.

Similarly, 26 of the 79 pharmacy directors whom we interviewed reported that their
pharmacies identified multiple plans that met dual-eligible residents’ needs or provided a
general list of plans that the pharmacies recommended to all residents. Most commonly,
these pharmacy directors reported also using the Medicare Plan Finder to identify
appropriate plans for residents. In addition, one pharmacy director explained that his
pharmacy provided a list of recommended plans based on the extent to which they
covered the most commonly prescribed drugs for the elderly. Further, prior to the start of
our study, we obtained a list of plans that one long term care pharmacy had distributed to
nursing homes. It provided estimates of the potential expense to the nursing home for
dual-eligible residents enrolled in these plans.11

Several Nursing Homes and Long Term Care Pharmacies Recommended One Plan
to Dual-Eligible Nursing Home Residents
About 9 percent of nursing home administrators reported that their nursing homes or long
term care pharmacies enrolled most dual-eligible residents in a single plan or
recommended one plan to each resident. One administrator reported that her nursing
home obtained residents’ permission to change their plans and then enrolled most of them
in a single plan. Another administrator noted that her nursing home recommended one
plan to all its residents and enrolled most long term care residents in that plan. Another


10
   The Medicare Prescription Drug Plan Finder is an Internet site where Medicare beneficiaries can learn
about Medicare prescription drug coverage, find and compare prescription drug plans, and enroll in a
prescription drug plan. The Plan Finder can be found at
http://www.medicare.gov/MPDPF/Public/Include/DataSection/Questions/MPDPFIntro.asp.
11
   The analysis compared potential expenses for noncovered drugs, prior authorizations, and step therapy
for dual-eligible residents for 20 Part D plans. Prior authorization requires a beneficiary to seek prior
approval from the plan to receive a drug on the formulary. Step therapy requires the beneficiary to try a
less expensive drug before the plan will cover a specific drug.




OEI-02-06-00191
Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
Selecting Part D Plans
 Page 5 – Kerry Weems


 administrator reported that she recommended the same plan to all residents based on the
 pharmacy’s advice.

 The other eight administrators reported that their nursing homes or long term care
 pharmacies recommended one plan to each resident or to some residents based on their
 individual drug needs. Several of these administrators explained that staff at the nursing
 homes or at the long term care pharmacies reviewed each resident’s drugs and then
 recommended one plan, as opposed to providing the resident with a list of several plans
 that met his or her needs.

 In addition, 6 of the 79 pharmacy directors whom we interviewed also reported that their
 pharmacies generally recommended one plan to each resident. Five pharmacy directors
 reported that their pharmacies recommended one plan to each resident or to some
 residents based on their individual drug needs. Another pharmacy director reported that
 his pharmacy recommended the same plan to all residents because its formulary was
 similar to the formulary that physicians used prior to Part D.

 Table 1: Nursing Home Administrators’ and Pharmacy Directors’ Responses About
 Assisting Dual-Eligible Residents With Selecting Their Part D Plans




Type of Assistance                                                 Nursing Home Administrators                Pharmacy Directors

                                                                          Number             Percentage                 Number
Identified multiple plans that met the needs of
dual-eligible residents or provided a general
list of plans that the pharmacy recommended
to all residents*                                                             48                       38%                   26
Enrolled most dual-eligible residents in a
single plan or recommended one plan to each
resident                                                                      11                        9%                    6

Provided general information only
                                                                               47                      37%                   17
Provided no assistance
                                                                               22                      17%                   30
  Total                                                                       128                    100%**                  79
*Note: Only pharmacy directors responded that they provided a general list of recommended plans. 

** The total of these percentages does not equal 100 because of rounding. 

Source: Office of Inspector General analysis of interview data, 2007. 





 OEI-02-06-00191
 Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
 Selecting Part D Plans
Page 6 – Kerry Weems


The Remaining Nursing Homes and Long Term Care Pharmacies Provided Only
General Information or No Assistance At All to Dual-Eligible Residents
Another 37 percent of nursing home administrators and 17 of the 79 pharmacy directors
whom we interviewed reported that they provided only general information about the
benefit to dual-eligible residents. According to these respondents, they most commonly
provided educational materials or answered questions about the Part D benefit and the
enrollment process.

In addition, 17 percent of administrators and 30 of the 79 pharmacy directors whom we
interviewed said that they provided no assistance directly to dual-eligible residents with
selecting their Part D plans. Several administrators and pharmacy directors noted that
they had no role in the selection process because the residents were automatically
enrolled in plans by CMS.

CONCLUSION

Based on our interviews, we found that nursing homes and long term care pharmacies
provided different types of assistance to dual-eligible residents who were selecting their
Part D plans. It appears that some of these practices, such as enrolling beneficiaries into
a single plan or recommending only one plan, may not be in accordance with CMS
guidance. This guidance does not allow nursing homes to request, require, coach, or steer
residents to select plans. We further note that the current Federal regulations that apply
to hospital discharge planning may serve as a useful model for Part D. Specifically, as
part of the discharge-planning process, the hospital must: provide a list of home health
agencies or skilled nursing facilities available to the patient,12 document in the patient’s
medical record that the list was presented, and inform the patient or the patient’s family
of their freedom to choose among participating Medicare providers of posthospital care
services.13

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-02-06-00191 in all correspondence.




12
   42 CFR § 482.43(c)(6)(iii) states that “[T]his list must only be presented to patients for whom home 

health care or post-hospital extended care services are indicated as appropriate as determined by the 

discharge planning evaluation.” 

13
   42 CFR § 482.43(c). 




OEI-02-06-00191
Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
Selecting Part D Plans
         Page 7 – Kerry Weems

                                            Appendix 

          Confidence Intervals for Selected Estimates for Nursing Home Administrators 

                                       (Sample Size = 128) 




                                                                                                    95-Percent
Estimate Description                                                    Point Estimate      Confidence Interval

Percentage of nursing home administrators who reported that
their nursing homes or the long term care pharmacies identified                  37.5%                   29.1%–45.9%
multiple plans that met the needs of dual-eligible residents

Percentage of nursing home administrators who reported that
their nursing homes or the long term care pharmacies enrolled
                                                                                   8.6%                   3.7%–13.5%
dual-eligible residents into a single plan or recommended one plan
to each resident

Percentage of nursing home administrators who reported that
they provided only general information about the benefit to                       36.7%                  28.4%–45.0%
dual-eligible residents

Percentage of nursing home administrators who reported that
they provided no assistance at all to dual-eligible residents with               17.2%                   10.7%–23.7%
selecting a Part D plan

Source: Office of Inspector General analysis of interview data, 2007.




         OEI-02-06-00191
         Role of Nursing Homes and Long Term Care Pharmacies in Assisting Dual-Eligible Residents With
         Selecting Part D Plans
